    ~ SIllVIl'ES &.
                                                                                                      Ot1icc of Inspector General
(            ~           DEPARTMENT OF HEALTn & HUMAN SERVICES                                        Ot1ice of Audit Services


o
 '+ ~
       JIt:.
  ~~",'t. (}.                                                                                         Region VII
                                                                                                      601 East 12" Street

                  AUG 28 200                                                                          Room 0429
                                                                                                      Kansas City. Missouri 641 06

                      Report Number: A-07-08-00281

                      Mr. David Breuer
                      Senior Vice President of Finance and Chief Financial Officer
                      Noridian Mutual Insurance Company
                      4510 13th Avenue South
                      Fargo, North Dakota 58121-0001

                      Dear Mr. Breuer:

                      Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                      General (OIG), final report entitled "Review of Postretirement Benefit Costs Claimed for
                      Medicare Reimbursement by Noridian Administrative Services, LLC, for Fiscal Years 2004 and
                      2005." We will forward a copy of this report to the HHS action official noted on the following
                      page for review and any action deemed necessary.

                      The HHS action official will make final determination as to actions taken on all matters reported .
                      We request that you respond to this official within 30 days from the date of this letter. Your
                      response should present any comments or additional information that you believe may have a
                      bearing on the final determination.

                      Pursuant to the Freedom ofInformation Act, 5 U.S.c. § 552, OIG reports generally are made
                      available to the public to the extent that information in the report is not subject to exemptions in
                      the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                      If you have any questions or comments about this report, please do not hesitate to call me, or
                      contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or through email at
                      Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-08-00281 in all
                      correspondence.

                                                                     Sincerely,



                                                                             . 0 ley
                                                                     Regional Inspector General
                                                                      for Audit Services


                      Enclosure
Page 2 – Mr. David Breuer


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 REVIEW OF POSTRETIREMENT
BENEFIT COSTS CLAIMED FOR
MEDICARE REIMBURSEMENT BY
  NORIDIAN ADMINISTRATIVE
 SERVICES, LLC, FOR FISCAL
    YEARS 2004 AND 2005




                    Daniel R. Levinson
                     Inspector General

                       August 2009
                      A-07-08-00281
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

During our audit period (fiscal years (FY) 2004 and 2005), Noridian Administrative Services,
LLC (NAS), administered Medicare Parts A and B operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS).

In claiming postretirement benefit (PRB) costs, contractors must follow cost reimbursement
principles contained in the Federal Acquisition Regulation and applicable Cost Accounting
Standards (CAS), as required by the Medicare contracts. In addition, the Medicare contracts and
the annual Budget and Performance Requirements mandate that any change in accounting
practice for PRB costs be submitted to CMS in advance for approval.

NAS submitted a request to CMS to change its accounting practice for PRBs from the pay-as-
you-go method to the segmented accrual accounting method effective October 1, 2003. CMS
granted approval subject to the findings and recommendations of this review. Noridian Mutual
Insurance Company, the parent company of NAS, also established a voluntary employee benefit
association trust to fund annual accruals. NAS started claiming accrued PRB costs in FY 2004.

Following the close of each FY, NAS submitted a Final Administrative Cost Proposal (FACP) to
CMS reporting the administrative costs of performing Medicare functions during the year. The
accrued PRB cost is part of the administrative cost of performing Medicare functions and, as
such, is claimed on each FY’s FACP.

OBJECTIVE

Our objective was to determine the allowability of the PRB costs NAS claimed for Medicare
reimbursement on an accrual basis for FYs 2004 and 2005.

SUMMARY OF FINDING

NAS claimed some unallowable Medicare PRB costs for FYs 2004 and 2005. NAS claimed
accrued PRB costs of $7,674,204 for Medicare reimbursement; however, based on CAS PRB
costs for the Medicare segment and the Total Company, allowable costs were $7,358,291. NAS
claimed $315,913 of accrued PRB costs for FYs 2004 and 2005 that were unallowable for
Medicare reimbursement because it based its claim for Medicare reimbursement on improperly
computed CAS PRB costs.

RECOMMENDATIONS

We recommend that NAS revise its FACPs to refund to the Federal Government unallowable
accrued PRB costs of $315,913 for FYs 2004 and 2005. We also recommend that NAS claim
future PRB costs in accordance with the Medicare contract.




                                               i
AUDITEE COMMENTS

In written comments, NAS disagreed with our draft report’s recommendation to refund to the
Federal Government unallowable accrued PRB costs of $3,831 for FYs 2004 and 2005. NAS
stated that its actuary “. . . worked with the OIG [Office of Inspector General] on a revised
calculation,” the result of which was that “. . . we will need to refund to the Federal Government
unallowable PRB costs of $315,913 for FYs 2004 and 2005.” NAS did not address the
recommendation to claim future PRB costs in accordance with the Medicare contract.

NAS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NAS’s comments, as well as additional information provided by NAS’s actuary,
we revised the calculations and related recommendation in this final report to reflect the dollar
amount indicated in NAS’s comments. We continue to support our second recommendation.




                                                ii
                                      INTRODUCTION

BACKGROUND

Noridian Administrative Services, LLC, and Medicare

During our audit period (fiscal years (FY) 2004 and 2005), Noridian Administrative Services,
LLC (NAS), administered Medicare Parts A and B operations under cost reimbursement
contracts with the Centers for Medicare & Medicaid Services (CMS). In claiming postretirement
benefit (PRB) costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR) and applicable Cost Accounting Standards (CAS), as
required by the Medicare contracts.

Federal Requirements

Medicare reimburses a portion of the funded accruals that contractors charge for their PRB plans.
To be allowable for Medicare reimbursement, FAR 31.205-6(o) requires that PRB accrual costs
be (1) determined in accordance with Statement of Financial Accounting Standards (SFAS) 106
and (2) funded into a dedicated trust fund, such as a voluntary employee benefit association
(VEBA) trust.

Since 1993, the “Budget and Performance Requirements” instructions sent to Medicare
contractors have included a reminder of the special provisions regarding costs of PRB plans.
The instructions specify that any change in accounting practice for PRB costs must be submitted
to CMS in advance for approval.

Noridian Administrative Services, LLC’s Request To Use Segmented Postretirement
Benefit Accrual Accounting

NAS submitted a request to CMS to change its accounting practice for PRBs from the pay-as-
you-go method to the segmented accrual accounting method effective October 1, 2003. CMS
granted approval subject to the findings and recommendations of this review. Noridian Mutual
Insurance Company, the parent company of NAS, participates in a VEBA trust for the purpose of
funding annual accruals. NAS started claiming accrued PRB costs in FY 2004.

Following the close of each FY, NAS submitted a Final Administrative Cost Proposal (FACP) to
CMS reporting the administrative costs of performing Medicare functions during the year. The
accrued PRB cost is part of the administrative cost of performing Medicare functions and, as
such, is claimed on each FY’s FACP.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of the PRB costs NAS claimed for Medicare
reimbursement on an accrual basis for FYs 2004 and 2005.



                                               1
Scope

We reviewed accrued PRB costs that NAS claimed for Medicare reimbursement on its FACPs
for FYs 2004 and 2005.

Achieving our objective did not require us to review NAS’s overall internal control structure.
We reviewed internal controls relating to the accrued PRB costs claimed for Medicare
reimbursement to ensure that the PRB costs were allowable pursuant to the FAR.

We performed fieldwork at NAS’s office in Fargo, North Dakota.

Methodology

We reviewed the applicable Federal requirements. We also identified accrued PRB costs as
claimed by NAS on its FACPs. We identified NAS’s accrued PRB costs for the Total Company
and for the Medicare segment. We also determined the extent to which NAS funded the PRB
costs with contributions to the VEBA trust fund or with direct payment of benefits.

In performing this review, we used information provided by NAS’s actuarial consulting firm,
which included the VEBA assets, PRB obligations, service costs, contributions, claims paid,
investment earnings, and administrative expenses. We reviewed NAS’s accounting records, the
PRB plan documents, Department of Labor/Internal Revenue Service Forms 5500, VEBA trust
transaction documents, and PRB actuarial valuation reports, which included SFAS 106
information. The CMS Office of the Actuary used the information to develop PRB costs for
NAS based on SFAS 106 methodology pursuant to the FAR. In turn, we reviewed and accepted
the actuarial data and used it to calculate the accrued PRB costs that were allowable for Medicare
reimbursement for FYs 2004 and 2005. Appendix A contains the details of the PRB costs and
contributions.

We performed this review in conjunction with our audits of NAS’s segmented PRB assets
(A-07-08-00280) and of pension costs claimed for Medicare reimbursement (A-07-08-00259).
We used the information obtained and reviewed during those audits in performing this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

NAS claimed some unallowable Medicare PRB costs for FYs 2004 and 2005. NAS claimed
accrued PRB costs of $7,674,204 for Medicare reimbursement; however, based on CAS PRB
costs for the Medicare segment and the Total Company, allowable costs were $7,358,291. NAS
claimed $315,913 of accrued PRB costs for FYs 2004 and 2005 that were unallowable for




                                                2
Medicare reimbursement because it based its claim for Medicare reimbursement on improperly
computed CAS PRB costs.

The FAR states that accrual accounting may be used to determine the allowable PRB costs if the
cost is measured and assigned (actuarially determined) according to generally accepted
accounting principles based on amortization of any transition obligation.1 The FAR also states
that allowable costs must be funded by the time set for filing the Federal income tax return or
any extension thereof, and must comply with the applicable standards promulgated by the CAS
Board.

We compared allowable accrued PRB costs with the accrued PRB costs claimed on NAS’s
FACPs, as shown in the table below.

                                Accrued PRB Costs Claimed Variance
                      Fiscal Year     Per OIG       Per NAS      Difference
                         2004          3,908,217      4,113,605     (205,388)
                         2005          3,450,074      3,560,599     (110,525)
                         Total        $7,358,291     $7,674,204    ($315,913)

NAS based its claim for Medicare reimbursement on CAS PRB costs for the Medicare segment
and the Total Company. However, those CAS PRB costs were different from the CAS PRB
costs that we determined during our audit. Thus, NAS claimed $315,913 of unallowable accrued
PRB costs.

RECOMMENDATIONS

We recommend that NAS revise its FACPs to refund to the Federal Government unallowable
accrued PRB costs of $315,913 for FYs 2004 and 2005. We also recommend that NAS claim
future PRB costs in accordance with the Medicare contract.

AUDITEE COMMENTS

In written comments, NAS disagreed with our draft report’s recommendation to refund to the
Federal Government unallowable accrued PRB costs of $3,831 for FYs 2004 and 2005. NAS
stated that its actuary “. . . worked with the OIG [Office of Inspector General] on a revised
calculation,” the result of which was that “. . . we will need to refund to the Federal Government
unallowable PRB costs of $315,913 for FYs 2004 and 2005.” NAS did not address the
recommendation to claim future PRB costs in accordance with the Medicare contract.

NAS’s comments are included in their entirety as Appendix B.




1
Costs attributable to past service (transition obligation) must be assigned under the delayed recognition
methodology described in paragraphs 112 and 113 of SFAS 106.


                                                          3
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing NAS’s comments, as well as additional information provided by NAS’s actuary,
we revised the calculations and related recommendation in this final report to reflect the dollar
amount indicated in NAS’s comments. We continue to support our second recommendation.




                                                4
APPENDIXES
                    NORIDIAN ADMINISTRATIVE SERVICES, LLC,
                      STATEMENT OF ALLOWABLE ACCRUED                         APPENDIX A
                        POSTRETIREMENT BENEFIT COSTS                           Page 1 of 4
                         FOR FISCAL YEARS 2004 AND 2005

                                                    Total         Other          Medicare

Date                  Description                  Company       Segment         Segment


 2003     Contributions                       1/   $7,100,000    $6,156,363        $943,637
5.50%     Discount for Interest               2/     (369,143)     (320,081)        (49,062)
1/1/03    Present Value Of Contributions      3/    6,730,857     5,836,282         894,575
          Prepayment Credit Applied           4/            0             0               0
          Present Value Of Funding            5/    6,730,857     5,836,282         894,575

1/1/03	   Current Period Funding Requirement 6/     1,734,962      840,387          894,575
          Percentage Funded                   7/                   100.00%          100.00%
          Funded PRB Cost                     8/                   840,387          894,575
          Allowable Interest                  9/                    32,740           34,851
          Allocable PRB Cost                 10/                   873,127          929,426




 2004     Contributions                            $4,100,000    $3,177,822       $922,178
5.50%     Discount for Interest                      (200,855)     (155,678)        (45,177)
1/1/04    Present Value Of Contributions            3,899,145     3,022,144         877,001
          Prepayment Credit Applied                 5,270,669     2,655,192       2,615,477
          Present Value Of Funding                  9,169,814     5,677,336       3,492,478

1/1/04	   Current Period Funding Requirement        7,037,988     3,545,510       3,492,478
          Percentage Funded                                         100.00%         100.00%
          Funded PRB Cost                                         3,545,510       3,492,478
          Allowable Interest                                         34,685          34,166
          Allocable PRB Cost                                      3,580,195       3,526,644
          Fiscal Year PRB Cost               11/                  3,558,273       3,574,409
          Medicare LOB* Percentage           12/                     13.55%          95.85%

2004	     Allowable PRB Cost                 13/   $3,908,217     $482,146       $3,426,071
                           NORIDIAN ADMINISTRATIVE SERVICES, LLC,
                             STATEMENT OF ALLOWABLE ACCRUED                                      APPENDIX A
                               POSTRETIREMENT BENEFIT COSTS                                        Page 2 of 4
                                FOR FISCAL YEARS 2004 AND 2005

                                                                 Total               Other            Medicare
      Date                    Description                       Company             Segment           Segment

      2005      Contributions                                    $5,500,000         $3,498,903       $2,001,097
     5.50%      Discount for Interest                              (163,280)          (103,846)         (59,434)
     1/1/05     Present Value Of Contributions                    5,336,720          3,395,057        1,941,663
                Prepayment Credit Applied                         2,249,076          1,080,588        1,168,488
                Present Value Of Funding                          7,585,796          4,475,645        3,110,151

     1/1/05     Current Period Funding Requirement                5,988,072          2,877,021        3,111,051
                Percentage Funded                                                      100.00%          100.00%
                Funded PRB Cost                                                      2,877,021        3,111,051
                Allowable Interest                                                      54,963           59,434
                Allocable PRB Cost                                                   2,931,984        3,170,485
                Fiscal Year PRB Cost                                                 3,094,037        3,259,525
                Medicare LOB Percentage                                                 13.08%           93.43%

     2005       Allowable PRB Cost                               $3,450,074           $404,700       $3,045,374


  * Line of business.

  FOOTNOTES

1/ We obtained Total Company contribution amounts from the postretirement benefits (PRB) actuarial
   valuation reports and trust transaction documentation that included the dates of deposits. The Total
   Company represents Noridian Mutual Insurance Company (Noridian), the parent company of Noridian
   Administrative Services, LLC (NAS). The “Other” segment represents the difference between the Total
   Company and NAS, the Medicare segment. Total contributions to the trust fund are the deposits made to the
   voluntary employee benefit association (VEBA) trust fund. Such contributions can be used to satisfy the
   funding requirements of Federal Acquisition Regulation (FAR) 31.205-6(o)(2)(iii) and Cost Accounting
   Standards (CAS) 416-50(a)(1)(v)(A). The contributions included deposits made during the plan year and the
   discounted value of accrued contributions, if any, deposited after the end of the plan year but within the time
   allowed for filing tax returns.


2/ We subtracted the interest that is included in the contributions deposited after the beginning of each plan
   year to discount the contributions back to their beginning-of-the-year value. For purposes of this Appendix,
   we computed the interest as the difference between the present value of contributions at the valuation
   interest rate and actual contribution amounts. Interest is determined using the Statement of Financial
   Accounting Standards 106 expected long-term rate of return assumption.
                              NORIDIAN ADMINISTRATIVE SERVICES, LLC,
                                STATEMENT OF ALLOWABLE ACCRUED                                       APPENDIX A
                                  POSTRETIREMENT BENEFIT COSTS                                         Page 3 of 4
                                   FOR FISCAL YEARS 2004 AND 2005

 3/ The present value of contributions is the value of the contributions discounted from the date of deposit back
    to the first day of the plan year.

 4/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A
    prepayment credit is created when contributions, plus interest, exceed the end-of year Current Period
    Funding Requirement. A prepayment credit may be carried forward, with interest, to the first of each
    subsequent plan year until needed to fund future PRB costs. The accumulated value of prepayment credits is
    available as of the first day of the plan year and is applied as of the first day of the plan year to cover the cost
    assigned to the period.


 5/ The present value of funding represents the present value of contributions plus applied prepayment credits.
    This is the amount of funding that is available to cover the Current Period Funding Requirement measured at
    the first day of each plan year.

 6/ The Current Period Funding Requirement is based upon the assignable CAS PRB costs computed during our
    review. The Current Period Funding Requirement must be funded by accumulated prepayment credits or
    current year contributions to satisfy the funding requirement of the FAR. Using NAS’s reimbursement
    methodology, the Medicare segment’s cost was based on an allocation of the Total Company CAS PRB cost.
    During our review, we noted that NAS used a separately computed Medicare segment CAS PRB cost
    beginning in 2006.


 7/ The percentage of costs funded is a measure of the portion of the Current Period Funding Requirement that
    was funded during the plan year. Since any funding in excess of the Current Period Funding Requirement is
    premature funding of future period costs, the funded ratio may not exceed 100 percent. We computed the
    percentage funded as the present value of funding divided by the Current Period Funding Requirement. For
    purposes of this calculation, the percentage of funding has been rounded to four decimals.

 8/ We computed the funded PRB cost as the Current Period Funding Requirement multiplied by the percent 

    funded.


 9/ We assumed that interest on the funded PRB cost, less the applied prepayment credit, accrues in the same
    proportion that the interest on contributions bears to the present value of contributions. However, we limited
    the interest in accordance with FAR 31.205-6(o)(4), which provides that interest costs are unallowable if
    caused by a delay in funding beyond 30 days after the end of the each quarter to which they are assignable.


10/ The allocable PRB cost is the amount of PRB cost that may be allocated for contract costing purposes. The
    allocable PRB cost for 2003 represents a quarter year cost.
                            NORIDIAN ADMINISTRATIVE SERVICES, LLC,
                              STATEMENT OF ALLOWABLE ACCRUED                                  APPENDIX A
                                POSTRETIREMENT BENEFIT COSTS                                    Page 4 of 4
                                 FOR FISCAL YEARS 2004 AND 2005

11/ We converted the plan year allocable PRB costs to a Federal fiscal year (FY) basis (October 1 through
    September 30). We calculated the FY PRB costs as 1/4 of the prior year’s allocable costs plus 3/4 of the
    current year’s costs. FY 2004 PRB costs equal the 2003 allocable cost plus 3/4 of the calendar year 2004
    costs. Costs charged to the Medicare contract should consist of the Medicare segment’s direct PRB costs
    plus PRB costs attributable to indirect Medicare operations.

12/ We calculated allowable PRB costs of the Medicare and “Other” segments based on the Medicare line of
    business (LOB) percentage of each segment. We obtained the percentages from information provided by
    Noridian.

13/ We computed the allowable Medicare PRB cost as the FY PRB cost multiplied by the Medicare LOB
    percentage.
APPENDIX B
  Page 1 of 2
APPENDIX B
  Page 2 of 2
